Department of Health and Human Services
               OFFICE OF
          INSPECTOR GENERAL




NEBRASKA IMPROPERLY CLAIMED
     SOME CHILD CARE
     AND DEVELOPMENT
      TARGETED FUNDS



   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                     Gloria L. Jarmon
                                                  Deputy Inspector General

                                                            April 2013
                                                          A-07-12-03175
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                                    EXECUTIVE SUMMARY

 Nebraska claimed $2.9 million of unallowable Child Care and Development targeted funds for
 fiscal years 2004 through 2008.


WHY WE DID THIS REVIEW

The Child Care and Development Fund (CCDF) provides discretionary funding for three targeted
funds known as Infant and Toddler, Quality, and School Age Resource and Referral funds.
These targeted funds are used for activities that improve the availability, quality, and
affordability of childcare and to support the administration of these activities. The funds are
100 percent federally funded. Previous Office of Inspector General reviews found that one State
did not always comply with Federal requirements when claiming targeted funds for
reimbursement.

The objective of this review was to determine whether the Nebraska Department of Health and
Human Services (State agency) complied with Federal requirements for the use of CCDF targeted
funds for Federal reimbursement for Federal fiscal years (FY) 2004 through 2008.

BACKGROUND

Under the CCDF program, States have considerable latitude in administering and implementing
their childcare programs. Each State must develop, and submit to the Administration for
Children and Families (ACF) for approval, a State plan that identifies the purposes for which
CCDF funds will be expended for two grant periods (i.e., 2 FYs). Program requirements state
that a State agency has 2 FYs to obligate CCDF funds and a third FY to liquidate those funds.
The State plan must also designate a lead agency responsible for administering childcare
programs. In addition, States are required to report expenditures of targeted funds on the
quarterly Child Care and Development ACF-696 Financial Report (ACF-696 report), which is a
cumulative report for the FY.

In Nebraska, the State agency is the lead agency. As the lead agency, the State agency is
required to oversee the expenditure of funds by contractors, grantees, and other agencies of the
Nebraska State government to ensure that the funds are expended in accordance with Federal
requirements.

The State agency claimed CCDF targeted funds totaling $8,324,922 on its ACF-696 reports for
FYs 2004 through 2008. Of this amount, we reviewed $4,419,072 of targeted fund expenditures
claimed by the State agency and did not review $3,905,850 of targeted fund expenditures that the
State agency disbursed to the Nebraska Department of Education.

WHAT WE FOUND

Of the $4,419,072 of targeted funds that we reviewed, the State agency did not comply with
Federal requirements for the use of $2,965,913 in CCDF targeted funds for FYs 2004 through


Nebraska Improperly Claimed Some Child Care and Development Targeted Funds (A-07-12-03175)         i
2008. Specifically, the State agency (1) improperly obligated $1,954,940 of targeted funds after
the obligation period had ended, (2) improperly claimed $974,413 of expenditures that were not
for targeted funds activities, and (3) did not refund to the Federal Government $36,560 of
targeted funds that either were returned by the grantee after the obligation period had ended or
remained unliquidated after the liquidation period ended. For the remaining $1,453,159 of
CCDF targeted funds that we reviewed, the State agency obligated and liquidated the funds in
accordance with Federal requirements.

The State agency did not have policies and procedures in place to direct adequate oversight of
the obligation and liquidation of the targeted funds. In the absence of necessary policies and
procedures, the State agency could not correctly identify which expenditures would be allowable
for a particular FY.

WHAT WE RECOMMEND

We recommend that the State agency:

   •   refund to the Federal Government $1,954,940 for targeted funds that were not properly
       obligated,

   •   refund to the Federal Government $974,413 for expenditures that were not for targeted
       funds activities,

   •   refund to the Federal Government $36,560 for targeted funds that were returned by the
       grantee after the obligation period had ended or were not properly liquidated, and

   •   develop policies and procedures to monitor the obligation and liquidation of CCDF
       targeted funds to ensure that expenditures are properly obligated and liquidated.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our third
recommendation to refund $36,560 to the Federal Government. The State agency also described
actions that it had taken to address our fourth recommendation.

The State agency concurred with our finding that it had not properly obligated $1,954,940 in
targeted funds; however, the State agency did not fully agree with our recommendation to refund
those funds. The State agency stated, “[t]he [questioned] costs that were outside one period of
availability would be allowable in the following grant period.” As a corrective action, the State
agency proposed amending Federal reports to properly report the expenditures that were actually
incurred during the obligation period. Regarding our second recommendation, the State agency
stated that it “is in the process of verifying if these expenditures were truly unallowable.”




Nebraska Improperly Claimed Some Child Care and Development Targeted Funds (A-07-12-03175)         ii
OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we maintain that our findings and
recommendations are valid. As the State recognized by concurring with our first finding, these
CCDF funds must be obligated in the FY in which the funds were awarded or in the succeeding
FY (45 CFR § 98.60(d)(1)). Because the funds in this case were obligated after the period of
availability, Federal regulations require that any funds not obligated during the specified period
must revert to the Federal Government (45 CFR § 98.60(d)(7)). Therefore, the State’s proposed
solution is not consistent with Federal regulations, and the funds in question must be returned.




Nebraska Improperly Claimed Some Child Care and Development Targeted Funds (A-07-12-03175)       iii
                                                     TABLE OF CONTENTS

                                                                                                                                          Page

INTRODUCTION..................................................................................................................... 1

           Why We Did This Review ............................................................................................ 1

           Objective ........................................................................................................................ 1

           Background ................................................................................................................... 1

           How We Conducted This Review ................................................................................ 2

FINDINGS ................................................................................................................................. 2

           State Agency Improperly Obligated Targeted Funds ............................................... 3

           State Agency Improperly Claimed Nontargeted Fund Expenditures...................... 3

           State Agency Did Not Refund Returned or
              Improperly Liquidated Targeted Funds................................................................ 4

           State Agency Did Not Have Policies and Procedures in Place .................................. 5

RECOMMENDATIONS.......................................................................................................... 5

STATE AGENCY COMMENTS ............................................................................................ 5

OFFICE OF INSPECTOR GENERAL RESPONSE............................................................ 6

APPENDIXES

           A: Audit Scope and Methodology............................................................................... 7

           B: Federal Requirements Related to Child Care
               and Development Fund Targeted Funds ........................................................... 9

           C: State Agency Comments....................................................................................... 11




Nebraska Improperly Claimed Some Child Care and Development Targeted Funds (A-07-12-03175)                                                        iv
                                          INTRODUCTION

WHY WE DID THIS REVIEW

The Child Care and Development Fund (CCDF) provides discretionary funding for three targeted
funds, administered at the Federal level by the U.S. Department of Health and Human Services,
Administration for Children and Families (ACF), and known as Infant and Toddler, Quality, and
School Age Resource and Referral funds. These targeted funds are used for activities that
improve the availability, quality, and affordability of childcare and to support the administration
of these activities. The funds are 100 percent federally funded. Previous Office of Inspector
General reviews found that one State did not always comply with Federal requirements when
claiming targeted funds for reimbursement. 1

OBJECTIVE

The objective of this review was to determine whether the Nebraska Department of Health and
Human Services (State agency) complied with Federal requirements for the use of CCDF targeted
funds for Federal reimbursement for Federal fiscal years (FY) 2004 through 2008.

BACKGROUND

Under the CCDF program, States have considerable latitude in implementing and administering
their childcare programs. Each State must develop, and submit to ACF for approval, a State plan
that identifies the purposes for which CCDF funds will be expended for two grant periods (i.e.,
2 FYs). Program requirements state that a State agency has 2 FYs to obligate CCDF funds and a
third FY to liquidate those funds. The following table shows the obligation and liquidation
periods for each FY covered by our review.

                          Table 1: Obligation and Liquidation Periods

                                Obligation Period Obligation Period Liquidation Period
                                   Start Date         End Date          End Date
               FY
              2004                   10/1/2003              9/30/2005               9/30/2006
              2005                   10/1/2004              9/30/2006               9/30/2007
              2006                   10/1/2005              9/30/2007               9/30/2008
              2007                   10/1/2006              9/30/2008               9/30/2009
              2008                   10/1/2007              9/30/2009               9/30/2010

The State plan must also designate a lead agency responsible for administering childcare
programs. In addition, States are required to report expenditures of targeted funds on the
quarterly Child Care and Development ACF-696 Financial Report (ACF-696 report), which is a
cumulative report for the FY.

1
 Review of Unexpended Infant and Toddler Targeted Funds and Quality Targeted Funds Claimed by the Iowa
Department of Human Services for Fiscal Years 1998–2003 (A-07-07-00231, issued August 21, 2008); Iowa
Improperly Claimed Some Child Care and Development Targeted Funds (A-07-11-03163, issued March 26, 2012).


Nebraska Improperly Claimed Some Child Care and Development Targeted Funds (A-07-12-03175)                  1
In Nebraska, the State agency is the lead agency. As the lead agency, the State agency is
required to oversee the expenditure of funds by contractors, grantees, and other agencies of the
Nebraska State government, to ensure that the funds are expended in accordance with Federal
requirements. The State agency entered into contracts with the entities that would expend the
funds; for each such contract, the funds were considered obligated with the execution (that is, the
signing) of the contract.

HOW WE CONDUCTED THIS REVIEW

The State agency claimed CCDF targeted funds totaling $8,324,922 on its ACF-696 reports for
FYs 2004 through 2008. 2 Of the $8,324,922, we reviewed $4,419,072 of targeted fund
expenditures claimed by the State agency; we did not review $3,905,850 of targeted fund
expenditures that the State agency disbursed to the Nebraska Department of Education.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology, and Appendix B contains
details on the Federal and State requirements related to CCDF targeted funds.

                                                  FINDINGS

Of the $4,419,072 of targeted funds that we reviewed, the State agency did not comply with
Federal requirements for the use of $2,965,913 in CCDF targeted funds for FYs 2004 through
2008. Specifically, the State agency (1) improperly obligated $1,954,940 of targeted funds after
the obligation period had ended, (2) improperly claimed $974,413 of expenditures that were not
for targeted funds activities, and (3) did not refund to the Federal Government $36,560 of
targeted funds that either were returned by the grantee after the obligation period had ended or
remained unliquidated after the liquidation period ended. For the remaining $1,453,159 of
CCDF targeted funds that we reviewed, the State agency obligated and liquidated the funds in
accordance with Federal requirements.

The State agency did not have policies and procedures in place to direct adequate oversight of
the obligation and liquidation of the targeted funds. In the absence of necessary policies and
procedures, the State agency could not correctly identify which expenditures would be allowable
for a particular FY.




2
 The 3-year obligation and liquidation cycle described above creates an inherent delay in terms of when those funds
can be regarded as closed for adjustment and then subject to audit.


Nebraska Improperly Claimed Some Child Care and Development Targeted Funds (A-07-12-03175)                        2
STATE AGENCY IMPROPERLY OBLIGATED TARGETED FUNDS

Federal regulations specify that CCDF funds must be obligated 3 in the FY in which the funds
were awarded or in the succeeding FY and that any funds not obligated during this period will
revert to the Federal Government (45 CFR §§ 98.60(d)(1) and 98.60(d)(7)).

Contrary to these Federal requirements, the State agency improperly obligated $1,954,940 in
targeted funds. The State agency entered into contracts with contractors, grantees, and other
agencies of the Nebraska State government that would expend the funds; for each such contract,
the funds were considered obligated with the execution of the contract. The State agency did
not, however, always obligate targeted funds within the required timeframe for each FY in our
audit period. Therefore, the State agency claimed $1,954,940 of targeted funds for FYs 2004
through 2008 that were unallowable because the contracts with which those funds were
associated were not executed until after the 2-year obligation period had passed; accordingly,
these funds were improperly obligated (Table 2). For example, for FY 2007, the State agency
used a contract signed on August 21, 2009, to obligate $5,100 of targeted funds. However, the
2-year obligation period for the FY 2007 targeted funds ended on September 30,
2008. Therefore, the funds were obligated after the obligation period had ended.

                            Table 2: Improperly Obligated Targeted Funds

                                                    Improperly
                                               FY    Obligated
                                              2004    $362,159
                                              2005     548,032
                                              2006     443,000
                                              2007     267,336
                                              2008     334,413
                                              Total $1,954,940

STATE AGENCY IMPROPERLY CLAIMED
NONTARGETED FUND EXPENDITURES

The State agency must describe how it will use the targeted funds, and the targeted funds must be
used to improve the quality of childcare (quality activities). 4 The State agency identified these
activities in the ACF-approved CCDF State plan. The CCDF State plan required Infant and
Toddler targeted funds to be used to pay daycare centers and individual daycare providers for
infant childcare (birth to 18 months) at enhanced rates that were higher than the base rates for
childcare services.


3
  The determination of whether funds have been obligated and liquidated will be based on State or local law; if there
is no applicable State or local definition, the Federal definitions of obligations and outlays (expenditures at 45 CFR
§ 92.3) apply. We are unaware of any State or local laws that define these terms.
4
    45 CFR § 98.16(h).



Nebraska Improperly Claimed Some Child Care and Development Targeted Funds (A-07-12-03175)                           3
Contrary to Federal regulations and the approved CCDF State plan, the State agency claimed
$974,413 in expenditures that were not for targeted fund activities. Specifically, the State
agency claimed $952,714 in Infant and Toddler targeted funds for expenditures that were not for
quality activities for infants and toddlers. These claims were for childcare services coded with a
Special Needs service code and not an Infant or Toddler service code. 5 Furthermore, the State
agency was unable to identify the specific direct childcare services for which it had paid from the
Infant and Toddler targeted fund; therefore, the State agency was unable to support that the direct
childcare services were for infant childcare (birth to 18 months) as required by the CCDF State
plan.

In addition, the State agency incorrectly claimed $21,699 of Medicaid payments that it made to
diabetic clinics. The invoices for these expenditures had identified them as Medicaid
expenditures, but State agency personnel incorrectly coded these payments to the CCDF targeted
funds when inputting them in the State agency’s accounting system.

STATE AGENCY DID NOT REFUND RETURNED OR
IMPROPERLY LIQUIDATED TARGETED FUNDS

CCDF funds must be obligated in the FY in which the funds were awarded or in the succeeding
FY, and any funds not obligated during this period will revert to the Federal Government. In
addition, any funds not liquidated within 1 year of the end of the obligation period will revert to
the Federal Government (45 CFR §§ 98.60(d)(1) and 98.60(d)(7)). Furthermore, funds that are
properly obligated and liquidated but are subsequently returned to the grantee within the original
obligation period can be reobligated and liquidated (45 CFR § 98.60(g)(1)). If such funds are
received by the grantee after the applicable obligation period, they must be returned to the
Federal Government (45 CFR § 98.60(g)(2)).

Contrary to these requirements, the State agency did not return $36,560 in targeted funds to the
Federal Government. This included funds returned by the contractors, grantees, and other
agencies of the Nebraska State government after the obligation period had ended and payments
that the State agency made to contractors, grantees, and other agencies after the end of the
liquidation period. It also included funds that the State agency did not timely liquidate.

The grantees returned to the State agency $30,516 in unexpended grant funds relating to
FYs 2004 through 2008 targeted funds after their respective obligation periods had ended.
Although the funds were initially obligated and liquidated properly, these unused funds could not
be reobligated because the obligation period had expired. For example, a grantee returned
$4,900 of FY 2006 targeted funds to the State agency on October 30, 2008. The State agency
then reobligated the $4,900. Because the obligation period had ended on September 30, 2007,
these funds were not eligible to be reobligated.

Furthermore, the grantees returned to the State agency $944 in unexpended grant funds relating
to FY 2008 after the State agency submitted the final ACF-696 report to ACF (after the

5
 The State agency’s Child Care Provider Handbook identifies five service codes: Infant, Toddler, Preschool,
School Age, and Special Needs. The Special Needs code indicates that services have been provided to children aged
18 or younger with special needs.


Nebraska Improperly Claimed Some Child Care and Development Targeted Funds (A-07-12-03175)                      4
liquidation period had ended). In addition, the State agency did not expend (that is, liquidate)
$5,100 in FY 2008 targeted funds until after the liquidation period had ended.

STATE AGENCY DID NOT HAVE POLICIES AND PROCEDURES IN PLACE

The State agency did not have policies and procedures in place to direct adequate monitoring of
the obligation and liquidation of the targeted funds. In the absence of necessary policies and
procedures, the State agency could not correctly identify which expenditures would be allowable
for a particular FY.

Better monitoring would have revealed that the targeted funds were not being obligated and
liquidated according to the timeframes specified in Federal requirements.

                                     RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal Government $1,954,940 for targeted funds that were not properly
       obligated,

   •   refund to the Federal Government $974,413 for expenditures that were not for targeted
       funds activities,

   •   refund to the Federal Government $36,560 for targeted funds that were returned by the
       grantee after the obligation period had ended or were not properly liquidated, and

   •   develop policies and procedures to monitor the obligation and liquidation of CCDF
       targeted funds to ensure that expenditures are properly obligated and liquidated.

                                STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our third
recommendation to refund $36,560 to the Federal Government. The State agency also described
actions that it had taken to address our fourth recommendation.

The State agency concurred with our finding that it had not properly obligated $1,954,940 in
targeted funds; however, the State agency did not fully agree with our recommendation to refund
those funds. The State agency stated, “[t]he [questioned] costs that were outside one period of
availability would be allowable in the following grant period.” As a corrective action, the State
agency proposed amending Federal reports to properly report the expenditures that were actually
incurred during the obligation period. Regarding our second recommendation, the State agency
stated that it “is in the process of verifying if these expenditures were truly unallowable.”

The State agency’s comments appear in their entirety as Appendix C.




Nebraska Improperly Claimed Some Child Care and Development Targeted Funds (A-07-12-03175)         5
                     OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we maintain that our findings and
recommendations are valid. As the State recognized by concurring with our first finding, these
CCDF funds must be obligated in the FY in which the funds were awarded or in the succeeding
FY (45 CFR § 98.60(d)(1)). Because the funds in this case were obligated after the period of
availability, Federal regulations require that any funds not obligated during the specified period
must revert to the Federal Government (45 CFR § 98.60(d)(7)). Therefore, the State’s proposed
solution is not consistent with Federal regulations, and the funds in question must be returned.




Nebraska Improperly Claimed Some Child Care and Development Targeted Funds (A-07-12-03175)           6
                  APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Of the $8,324,922 claimed by the State agency for targeted funds reimbursement for FYs 2004
through 2008, we reviewed $4,419,072 of the targeted fund expenditures claimed by the State
agency; we did not review $3,905,850 of targeted fund expenditures that the State agency
disbursed to the Nebraska Department of Education. We did not perform a detailed review of
the State agency’s internal controls because our objective did not require us to do so. We limited
our review to the controls related to the obligation and liquidation of the targeted funds.

We conducted fieldwork at the State agency in Lincoln, Nebraska, from December 2011 through
March 2012.

METHODOLOGY

To accomplish our objective, we:

   •   reviewed applicable Federal laws, regulations, and program guidance, as well as State
       laws and the approved Nebraska CCDF State plans;

   •   reviewed the ACF-696 reports for FYs 2004 through 2008 to determine the amount of
       targeted funds that the State agency claimed;

   •   interviewed State agency staff responsible for preparing the ACF-696 reports to obtain an
       understanding of how the reports were prepared, how the targeted funds were reported,
       and what documentation was maintained to support expenditures on the reports;

   •   reviewed the State agency’s contracts with contractors, grantees, and other agencies of
       the Nebraska State government to determine the dates on which the contracts were signed
       in relation to the obligation requirements of the targeted funds for FYs 2004 through
       2008;

   •   reviewed the State agency’s payment dates to contractors, grantees, and other agencies of
       the Nebraska State government in relation to liquidation requirements of the targeted
       funds for FYs 2004 through 2008;

   •   reviewed the State agency’s documentation used to prepare the ACF-696 reports;

   •   reviewed accounting documentation maintained by the State agency in relation to
       expenditure of the Infant and Toddler targeted funds for direct childcare services;

   •   reviewed documentation submitted by contractors to the State agency in support of the
       expenditure of targeted funds; and

   •   discussed the results of our review with State agency officials on August 8, 2012.



Nebraska Improperly Claimed Some Child Care and Development Targeted Funds (A-07-12-03175)       7
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Nebraska Improperly Claimed Some Child Care and Development Targeted Funds (A-07-12-03175)     8
          APPENDIX B: FEDERAL REQUIREMENTS RELATED TO CHILD CARE
                   AND DEVELOPMENT FUND TARGETED FUNDS

FUND OBLIGATION REGULATIONS

Federal regulations (45 CFR § 98.60(d)(1)) state: “Discretionary Fund allotments shall be
obligated in the fiscal year in which funds are awarded or in the succeeding fiscal year.
Unliquidated obligations as of the end of the succeeding fiscal year shall be liquidated within one
year.”

Federal regulations (45 CFR § 98.60(d)(7)) state that “[a]ny funds not obligated during the
obligation period specified in paragraph (d) of this section will revert to the Federal government.
Any funds not liquidated by the end of the applicable liquidation period specified in paragraph
(d) of this section will also revert to the Federal government.”

Federal regulations (45 CFR § 98.60(g)) require that funds that are properly obligated and
liquidated but are subsequently returned to the grantee within the original obligation period,
“(1) if received by the Lead Agency during the applicable obligation period … be used for
activities specified in the Lead Agency’s approved plan and must be obligated by the end of the
obligation period; or (2) if received after the end of the applicable obligation period … be
returned to the Federal government.”

ACTIVITY REGULATIONS

Federal regulations (45 CFR § 98.16(h)) require that the approved CCDF State plan include
“[a] description of the activities to provide comprehensive consumer education, to increase
parental choice, and to improve the quality and availability of child care, pursuant to [45 CFR]
§ 98.51.”

Federal regulations (45 CFR §§ 98.51(a) and (b)) require that no less than 4 percent of the
aggregate funds be spent on activities to improve the quality of childcare and that the Lead
Agency describe in the CCDF State plan the activities it will fund under the quality activities
(which includes the targeted funds). 6

Relevant passages from the State agency’s CCDF State plan for FYs 2004–2005 state:

           First Connections is a training project designed to provide those caring for infants
           and toddlers, especially in rural and remote areas, with technology-based options
           for extending their knowledge of child development and effective ways of
           working with very young children, including those with disabilities ….

           Early Head Start/Child Care Initiative: The [Nebraska] Department of Health and
           Human Services funds projects to Early Head Start Programs to provide
           professional development and other support to home-based and center-based child
           care providers to provide quality infant toddler child care and to promote an infant
6
    Quality activities include the targeted funds, which are in addition to the 4-percent minimum.


Nebraska Improperly Claimed Some Child Care and Development Targeted Funds (A-07-12-03175)           9
       and toddler curriculum that can be used by home-based and center-based child
       care settings ….

       Infant Rates: The state subsidy paid for infant care will remain higher than rates
       paid for other age groups to address that lower staff/child ratios make infant care
       more costly than that provided to older children ….

       Early Childhood Mental Health Initiative: The Nebraska Department of Health
       and Human Services and the Nebraska Department of Education are requesting
       proposals from collaborative networks to develop integrated systems of care for
       young children (birth through 3 years of age) with behavioral/emotional issues ….

The CCDF State plan for FYs 2006–2007 retained the above guidelines and added the following:
“Early Childhood Mental Health Consultation Pilot: The Early Childhood Training Center,
along with three community-based mental health agencies and a community-based early
childhood program is piloting a model of mental health consultation in infant/toddler and
preschool classrooms, (birth to three years of age).”

The CCDF State plan for FYs 2008–2009 retained all of the above guidelines and added the
following: “Professional Development System: The Early Childhood Training Center and the
10 Professional Development Network/Regional Training Coalitions carry out the primary
functions of our Professional Development System.”




Nebraska Improperly Claimed Some Child Care and Development Targeted Funds (A-07-12-03175)   10
                           APPENDIX C: STATE AGENCY COMMENTS 





       DHH'SJ
       N E B R A S K A
                                                                                                              State of Nebraska
                                                                                                            Dave Heineman, Governor



            February 22, 2013




            Report Number: A-07-12-03175

            Mr. Patrick J . Cogley
            Regional Inspector General for Audit Services
            Department of Health and Human Services
            Office of Inspector General
            601 East 12'h Street, Room 0429
            Kansas City, MO 64106

            Dear Mr. Cogley,

            This letter is in regards to your draft report entitled Nebraska Improperly Claimed Some Child Care and
            Development Targeted Funds. At this time, we wou ld like to provide the following responses to your
            recommendations.

            Recommendation 1: Refund to the Federal Government $1,954,940 for targetedfunds that were not
            properly obligated.
                    The Department concurs with your finding but does not fully agree with the recommendation .
                    The costs that were outside one period of availability would be allowable in the following grant
                    period. As a corrective action, the Department would, to the extent possible, amend the federal
                    reports filed during the 2004- 2008 grant periods to properly report the expenditures that were
                    actually .incurred during the obligation period.

            Recommendation 2: Refund to the Federal Government $974,413 for expenditures that were not
            targetedfunds activities.
                   At this time, the Department is in the process of verifying if these expend itures were truly
                   unallowable. If the Department agrees with the finding, then the Department will verify
                   whether or not there were expenditures incurred during this time.that were allowable targeted
                   funds activities and those expenditures would be rea llocated to this grant.

            Recommendation 3: Refund to the Federal Government $36,560 for targeted funds that were returned
            after the obligation period had ended or were not properly liquidated.
                    The Department concurs with your finding and will refund the questioned cost to the
                    Administration for Children and Families

            Recommendation 4: Develop policies and procedures to monitor the obligation and liquidation of CCDF
            targetedfunds to ensure that expenditures are properly obligated and liquidated.
                   The Department has developed policies and procedures regarding the proper obligation and
                   liquidation of CCDF targeted funds since the conclusion of the 2008 grant year. These
                   procedures are continuously reviewed and enhanced as needed to ensure compliance w ith
                   federal laws and regulations. The program and finance grant managers will meet each month to


                                                     Helping People Live Better Lives
                                                     /vi Equal 0pp:lft1JrVlyiAffirmativel\ctll)'l Em~
                                                           printed vit~ !!tO'J ink oo recycled pepe•




Nebraska Improperly Claimed Some Child Care and Development Targeted Funds (4 -07-12-031 75)                                          11
                    review any expenditures applied to a grant during the liquidation period to assure that the items
                    were properly applied.

            If you have any questions or comments regarding our responses, please contact me at 402-471-9213 or
            kevin.r.nelson@nebraska.gov.

            Sincerely,




            Kevin R. Nelson, CPA
            Internal Auditor, Nebraska Department
                    Of Health and Human Services

            Cc:     Thomas Pristow, Director of Children and Family Services
                              Nebraska Department of Health and Human Services
                    Jill Schreck, Deputy Director; Eco nomic Assistance
                              Nebraska Department of Hea lth and Human Services
                    Teri Chasten, Economic Assistance Policy Chief
                              Nebraska Department of Hea lth and Human Services
                    Willard Bouwen s, Financial Services Administrator
                              Nebraska Department of Health and Human Services




Nebraska Improperly Claimed Some Child Care and Development Targeted Funds (A-07-12-03175)                              12
